                                   SOCIAL SECURITY

MEMORANDUM
Date:   December 16, 2002                                                Refer To

To:     Horace Dickerson
        Regional Commissioner

From:   Inspector General

Subject: Financial-Related
                         Audit of the Harris County Guardianship Program – an
        Organizational Representative Payee for the Social Security Administration
        (A-04-02-12020)

        Attached is a copy of our final report. Our objectives were to determine whether the
        Harris County Guardianship Program (1) had effective safeguards over the receipt and
        disbursement of Social Security benefits and (2) ensured Social Security benefits were
        used and accounted for in accordance with the Social Security Administration’s policies
        and procedures.

        Please comment within 60 days from the date of this memorandum on corrective action
        taken or planned on each recommendation. If you wish to discuss the final report,
        please call me or have your staff contact Steven L. Schaeffer, Assistant Inspector
        General for Audit, at (410) 965-9700.




                                                       James G. Huse, Jr.


        Attachment

        cc:
        Fritz Streckewald
        JoEllen Felice
        Candace Skurnik
          OFFICE OF
   THE INSPECTOR GENERAL


SOCIAL SECURITY ADMINISTRATION


  FINANCIAL - RELATED AUDIT OF THE
    HARRIS COUNTY GUARDIANSHIP
   PROGRAM - AN ORGANIZATIONAL
   REPRESENTATIVE PAYEE FOR THE
  SOCIAL SECURITY ADMINISTRATION

    December 2002       A-04-02-12020




                    .
                                    Mission
We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

  m Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
  m Promote economy, effectiveness, and efficiency within the agency.
  m Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
  m Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
  m Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

  m Independence to determine what reviews to perform.
  m Access to all information necessary for the reviews.
  m Authority to publish findings and recommendations based on the reviews.

                                      Vision

By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                                       Executive Summary
OBJECTIVES

Our objectives were to determine whether the Harris County Guardianship Program
(HCGP) (1) had effective safeguards over the receipt and disbursement of Social
Security benefits and (2) ensured Social Security benefits were used and accounted for
in accordance with the Social Security Administration’s (SSA) policies and procedures.

BACKGROUND

Some beneficiaries cannot manage or direct the management of their finances because
of their youth or mental and/or physical impairments. Congress granted SSA the
authority to appoint representative payees (Rep Payee) to receive and manage these
beneficiaries’1 payments. A Rep Payee may be an individual or an organization. SSA
selects Rep Payees for Old-Age, Survivors and Disability Insurance beneficiaries or
Supplemental Security Income recipients when representative payments would serve
the individual’s interests.

HCGP serves as an organizational Rep Payee for SSA and provides care to
incapacitated and indigent adults as ordered by the Harris County Probate Courts.
HCGP employs approximately 24 caseworkers and 3 supervisors to monitor and
manage beneficiaries’ living arrangements, personal care, medical treatment, and other
financial affairs.

RESULTS OF REVIEW
HCGP did not effectively safeguard the receipt and disbursement of SSA benefits or
use and account for those benefits in accordance with SSA policies and procedures.
During our audit period, HCGP received $3,179,769 in SSA benefits on behalf of
571 beneficiaries. We project that HCGP did not use and account for as much as
$1,213,691 of these benefits in accordance with SSA’s policies and procedures.
Specifically, HCGP

·   collected unapproved and/or excessive guardianship fees from SSA beneficiaries,

·   did not properly monitor conserved fund balances resulting in overpayments to SSA
    beneficiaries,

·   collected SSA benefits for beneficiaries who were missing or no longer in its care,
    and


1
  We use the term “beneficiary” generically in this report to refer to both Old-Age, Survivors and Disability
Insurance beneficiaries and Supplemental Security Income recipients.

Financial-Related Audit of HCGP – an Organizational Rep Payee for SSA (A-04-02-12020)                     i
·   misappropriated at least $52,062 in SSA beneficiaries’ monies through employee
    theft.

HCGP did not follow Harris County Probate Court’s directions when providing care to
two SSA beneficiaries. Also, we could not determine whether HCGP properly reported
to SSA how benefits were used in all cases because SSA did not provide 12 of the
37 Rep Payee Reports we requested. These two issues are discussed in the Other
Matters section of this report.

Some of the adverse conditions we identified at HCGP occurred because of a lack of
oversight by SSA. In December 1999, SSA’s Houston field office (FO) conducted an
on-site review at HCGP. According to FO personnel, the site review was limited to a
review of expenditures for five beneficiaries and was completed in less than 1 hour.
The review did not identify any problems. However, FO personnel did not interview
beneficiaries or assess their living conditions. If the FO had conducted a more
thorough review, many of the adverse conditions identified in this report may have been
discovered.

CONCLUSIONS AND RECOMMENDATIONS
Given the severity of the issues disclosed during our audit, we recommend that SSA
evaluate HCGP to determine whether it should remain as a Rep Payee. If HCGP
remains as a Rep Payee, SSA should increase its oversight of HCGP until its
performance is improved and is in accordance with SSA instructions.

We also recommend, in part, that SSA:

·   Review the appropriateness of all guardianship fees paid from SSA beneficiary
    funds since HCGP began serving as Rep Payee and instruct HCGP to return
    unapproved and improperly assessed fees to affected beneficiaries.

·   Calculate and collect overpayments resulting from the 13 beneficiaries’ accounts we
    identified with conserved funds balances exceeding $2,000.

·   Recover from HCGP $9,096 in benefits received for the two beneficiaries who we
    identified were not under its care during our audit period.

·   Direct HCGP to return the beneficiaries’ funds that were misappropriated by its two
    former employees to the affected beneficiaries’ accounts.

AGENCY COMMENTS

SSA agreed with most of our recommendations; however, it did not agree with
Recommendation 2 to instruct HCGP to submit guardianship fee assessments to the
SSA field office for review and approval. See Appendix A for the full text of SSA’s
comments to our draft report.


Financial-Related Audit of HCGP – an Organizational Rep Payee for SSA (A-04-02-12020)   ii
REP PAYEE COMMENTS

We requested HCGP to comment on the findings and recommendations related to its
duties as a Rep Payee (Recommendations 2 through 10).

HCPG agreed with all of the recommendations except for Recommendation 3 for SSA
to review the appropriateness of all the HCGP guardianship fees paid from SSA
beneficiary funds. HCGP stated it did not believe Texas law limits guardianship fees to
5 percent of a beneficiary’s income. See Appendix B for the full text of HCGP’s
comments.

OFFICE OF THE INSPECTOR GENERAL RESPONSE

We concur with SSA’s response that it will work to improve HCGP’s performance
through increased oversight. Moreover, SSA stated the responsible FO is committed to
improving HCGP’s performance and has already begun by changing its review process
and providing additional training to HCGP’s personnel. Regarding Recommendation 2,
we maintain that SSA should instruct HCGP to submit guardianship fee assessments to
the SSA FO for review and approval. We believe such a recommendation is warranted
based on the pervasive problems found during our review of HCGP. SSA cannot
evaluate the reasonableness of these fees without such a review.

Regarding Recommendation 3, we continue to have concerns about the
appropriateness of the guardianship fees and whether they comply with Texas law.
Therefore, SSA should review all relevant information concerning this matter and obtain
legal opinions, as needed, to determine whether the guardianship fees are appropriate.
SSA should then inform HCGP, and other Rep Payees in the State of Texas who may
be affected, of its decision. Finally, SSA should develop policy instructions so SSA staff
can determine whether assessed guardianship fees are excessive.




Financial-Related Audit of HCGP – an Organizational Rep Payee for SSA (A-04-02-12020)   iii
                                                                      Table of Contents
                                                                                                              Page

INTRODUCTION.....................................................................................................1

RESULTS OF REVIEW ..........................................................................................4

    SSA Benefits Were Not Used and Accounted for in Accordance with
    SSA Policies and Procedures ............................................................................5

    HCGP Did Not Effectively Safeguard the Disbursement of Social
    Security Benefits................................................................................................7

    SSA Should Improve Its Oversight of HCGP .....................................................9

CONCLUSIONS AND RECOMMENDATIONS .....................................................11

OTHER MATTERS ...............................................................................................13

APPENDICES

APPENDIX A – Agency Comments

APPENDIX B – Representative Payee Comments

APPENDIX C – Sampling Methodology and Results

APPENDIX D – Harris County Auditor’s Report on Harris County Guardianship Program

APPENDIX E – OIG Contacts and Staff Acknowledgments




Financial-Related Audit of HCGP – an Organizational Rep Payee for SSA (A-04-02-12020)
                                                                       Acronyms
FO                Field Office

HCGP              Harris County Guardianship Program

OASDI             Old-Age, Survivors and Disability Insurance

POMS              Program Operations Manual System

Rep Payee         Representative Payee

RPR               Representative Payee Report

RPS               Representative Payee System

SSA               Social Security Administration

SSI               Supplemental Security Income




Financial-Related Audit of HCGP – an Organizational Rep Payee for SSA (A-04-02-12020)
                                                                      Introduction
OBJECTIVES
Our objectives were to determine whether the Harris County Guardianship Program
(HCGP) (1) had effective safeguards over the receipt and disbursement of Social
Security benefits and (2) ensured Social Security benefits were used and accounted for
in accordance with the Social Security Administration’s (SSA) policies and procedures.

BACKGROUND

Some beneficiaries cannot manage or direct the management of their finances because
of their youth or mental and/or physical impairments. Congress granted SSA the
authority to appoint representative payees (Rep Payee) to receive and manage these
beneficiaries’ and recipients’ payments.1 A Rep Payee may be an individual or an
organization. SSA selects Rep Payees for Old-Age, Survivors and Disability Insurance
(OASDI) beneficiaries or Supplemental Security Income (SSI) recipients when
representative payments would serve the individual’s interests.

REP PAYEE RESPONSIBILITIES

Rep Payees are responsible for using benefits to serve the best interests of the
beneficiary. Their duties include

·     using benefits to meet the beneficiary’s current and foreseeable needs,

·     conserving and investing benefits not needed to meet the individual's current needs,

·     maintaining accounting records of how the benefits are received and used,

·     reporting events to SSA that may affect the individual's entitlement or benefit
      payment amount,

·     reporting any changes in circumstances that would affect their performance as a
      Rep Payee, and

·     providing SSA an annual Representative Payee Report (RPR) accounting for how
      benefits were spent and invested.2




1
    42 U.S.C. § 405(j) and § 1383(a)(2)(A).
2
    Ibid.; 20 C.F.R., part 404, subpart U, and part 416, subpart F.


Financial-Related Audit of HCGP – an Organizational Rep Payee for SSA (A-04-02-12020)   1
About 7 million individuals have Rep Payees—approximately 4.4 million are OASDI
beneficiaries, 2 million are SSI recipients, and 600,000 are entitled to both OASDI and
SSI. The following chart reflects the types of Rep Payees and the number of
individuals they serve as of November 2001.

                                                                    Number            Number of
                    Type of Rep Payee                                  of             Individuals
                                                                   Rep Payees           Served
    Individual Payees: Parents, Spouses,
    Adult Children, Relatives, and Others                                 4,949,000       6,160,000
    Organizational Payees: State Institutions,
    Local Governments and Others                                            44,150          759,000
    Organizational Payees: Fee-for-Service                                     850           81,000
    TOTAL                                                                 4,994,000       7,000,000


HCGP (formerly Harris County Community Development – Guardianship) is an
organizational Rep Payee in Houston, Texas. HCGP provides guardianship and related
services to indigent adults (beneficiaries) deemed incapacitated by one of Harris
County’s four probate courts. HCGP manages and monitors the beneficiaries’ personal
care, such as placement in a residential facility and appropriate medical treatment.
HCGP also manages the beneficiaries’ financial affairs and, as guardian, makes other
important decisions on their behalf.

HCGP employs approximately 24 caseworkers and 3 supervisors who act as surrogate
decisionmakers for these beneficiaries. The assigned social worker acts as the chief
monitor of caregiving and provides the beneficiary the overall support services typically
provided by family members. Under HCGP guardianship authority, assigned social
workers make personal decisions for the beneficiaries, including living arrangements,
education and social activities, and authorize or withhold medical and other professional
care, treatment and advice.

SCOPE AND METHODOLOGY

Our audit covered the period May 1, 2000 through April 30, 2001. During this period,
HCGP served as Rep Payee for 571 beneficiaries who received $3,179,769 in SSA
benefits.3 From this population, we selected a random sample of 50 beneficiaries for
substantive testing, which should emulate the entire HCGP population of beneficiaries
receiving SSA benefits. To accomplish our objectives, we

·     reviewed the Social Security Act, SSA’s Program Operations Manual System
      (POMS), and other SSA rules and regulations pertaining to Rep Payees;



3
    Included $2,284,092 in title II and $895,677 in title XVI benefits.


Financial-Related Audit of HCGP – an Organizational Rep Payee for SSA (A-04-02-12020)               2
·   contacted SSA regional office and field office (FO) staff to obtain background
    information about the Rep Payee’s performance;

·   obtained from SSA’s Representative Payee System (RPS) and the Rep Payee a list
    of beneficiaries who were in the Rep Payee’s care and received SSA funds from
    May 1, 2000 through April 30, 2001;

·   compared and reconciled the RPS and the Rep Payee’s listings to identify the
    population of SSA beneficiaries who were in the Rep Payee’s care from
    May 1, 2000 through April 30, 2001;

·   reviewed and tested the Rep Payee’s internal controls over the receipt and
    disbursement of OASDI benefits and SSI payments;

·   performed the following tests for each of the 50 individuals in our random sample;

    -   compared and reconciled HCGP and SSA records of benefit amounts paid to
        each beneficiary,

    -   reviewed the Rep Payee’s accounting records to determine whether benefits
        were properly spent or conserved on the individual’s behalf, and

    -   traced a sample of recorded expenses to source documents and examined the
        underlying documentation for reasonableness and authenticity.

·   projected errors in the population based on our sample (see Appendix C);

·   interviewed 10 beneficiaries, personal guardians, or caregivers to determine whether
    the beneficiaries’ basic needs were being met;

·   received and reviewed 25 of the 37 RPRs requested to determine whether the Rep
    Payee properly reported how benefits were used; and

·   reviewed audit reports and working papers prepared by the Harris County Auditor’s
    Office on HCGP’s internal control structure and the management of its imprest
    account.4

We performed our audit fieldwork in Houston, Texas, and Atlanta, Georgia, between
July 2001 and April 2002. Our audit included an evaluation of HCGP’s controls over the
receipt and disbursement of SSA benefits. We did not determine the overall reliability
of the computer-generated data from HCGP’s accounting system or evaluate controls
over that system. We conducted our audit in accordance with generally accepted
government auditing standards.

4
 An imprest account is an account containing a fixed amount of money for the purpose of controlling
expenditures.


Financial-Related Audit of HCGP – an Organizational Rep Payee for SSA (A-04-02-12020)                 3
                                                    Results of Review
HCGP did not effectively safeguard the receipt and disbursement of SSA benefits and
use and account for those benefits in accordance with SSA policies and procedures.
We estimate that HCGP did not use and account for as much as $1,213,691 of the
$3,179,769 in SSA benefits it received in accordance with SSA’s policies and
procedures and did not adequately safeguard the disbursement of those funds, as
shown in the following table.

                                                        Number
                      Finding                              of                 Amount
                                                      Beneficiaries
                                                        Affected
 Unapproved and/or excessive                                      88               $127,710
 guardianship fees collected
 Overpayments related to exceeding SSI
 $2,000 resource limit                                             13               $66,402
 Overpayments related to missing                                      2                 $9,096
 beneficiaries
 Beneficiary funds misappropriated by                              31               $52,062
 HCGP employees
                                                      Projection of          Projected
                    Projection                        Expenditures            Amount
                                                        Affected
 Unsupported Expenditures                                       4,019            $1,213,691


We also found that HCGP did not follow Harris County Probate Court’s directions when
providing care to two SSA beneficiaries. Furthermore, we could not determine whether
HCGP properly reported to SSA how benefits were used in all cases because SSA did
not provide 12 of the 37 RPRs we requested. These two issues are discussed in the
Other Matters section of this report.

Some of the adverse conditions we identified at HCGP occurred because of a lack of
oversight by SSA. In December 1999, SSA’s Houston FO conducted an on-site review
at HCGP. According to FO personnel, the site review was limited to a review of
expenditures for five beneficiaries and was completed in less than 1 hour. The review
did not identify any problems. However, FO personnel did not interview beneficiaries or
assess their living conditions. If the FO had conducted a more thorough review, many
of the adverse conditions identified in this report may have been discovered. For
example, a detailed review of more than five beneficiaries may have identified
undocumented expenditures and excessive fund balances.




Financial-Related Audit of HCGP – an Organizational Rep Payee for SSA (A-04-02-12020)        4
SSA Benefits Were Not Used and Accounted for in Accordance with
SSA Policies and Procedures

Contrary to Texas State law, HCGP collected $127,710 in guardianship fees from
beneficiary accounts comprised almost entirely of SSA benefits. As a result, HCGP
augmented its operation budget with SSA benefit dollars. HCGP also neglected to
report when SSI recipients accumulated conserved funds exceeding the $2,000
resource limit. Additionally, contrary to SSA regulations, HCGP did not notify SSA
when beneficiaries either left its care or were missing and continued to receive and
accept SSA benefit payments.5

Guardianship Fees Improperly Assessed and Collected

In 1998, HCGP began collecting guardianship fees as an "innovative method”6 to
supplement the guardianship program with non-county dollars. During our audit period,
HCGP reported that 88 of 571 SSA beneficiaries were assessed guardianship fees of
$127,710 between May 1, 2000 and April 30, 2001.

HCGP assessed guardianship fees to cover ordinary case management costs for
visiting beneficiaries, disbursing funds, and reporting as well as miscellaneous activities,
such as telephone expenses.
HCGP charged costs related                 Allocation of Guardianship Fees Assessed
to establishing legal
guardianship to beneficiaries’                    Miscellaneous
                                                       10%                  Visiting
accounts at a rate of $35 per                                             Beneficiaries
hour. HCGP assessed                                                          40%
guardianship fees to SSA                     Disbursing
                                               Funds
beneficiaries receiving title II                39%              Reporting
benefits, enrolled in                                              11%
Medicaid, and residing in a
nursing home.

Of the 50 beneficiaries in our
sample, we identified 6 beneficiaries who were collectively assessed $10,960 in
guardianship fees. We found that HCGP’s assessment of guardianship fees for the
six beneficiaries violated the Texas Probate Code, which limits guardianship fees to
5 percent of a beneficiary’s gross income, excluding SSA and Veterans Administration
         7
benefits. Our analysis disclosed the following.




5
    20 C.F.R. 404.2055 and 20 C.F.R. 416.635.
6
    http://www.hchcda.co.harris.tx.us
7
    TX Probate Code § 665 (a), (h) (2001).



Financial-Related Audit of HCGP – an Organizational Rep Payee for SSA (A-04-02-12020)   5
·    The monthly income for four of the six beneficiaries was entirely from SSA funds so
     the $8,400 in guardianship fees collected from those beneficiaries were improper.

·    The two remaining beneficiaries were assessed $2,560 in guardianship fees.
     Pursuant to § 665 of the Texas Probate Code, HCGP may have only been entitled
     to collect guardianship fees of $181 for these two beneficiaries, collectively.

Conserved Funds Exceeded the $2,000 Limit

Under the SSI program, a recipient is limited to $2,000 in resources to remain eligible
for benefit payments. If a recipient exceeds the resource limit, SSA, upon notification,
suspends payment until the recipient’s resources fall below $2,000. It is the Rep
Payee’s duty to notify SSA if a recipient’s resources exceed $2,000 at the beginning of
any benefit month.8

Of the 50 cases we sampled, 1 had conserved funds exceeding the $2,000 SSI
resource limit. While ineligible for SSI payments, this recipient received $13,528 in SSI
payments from November 1999 through January 2002 even though her average
conserved funds balance exceeded $2,000 for a 26-month period. During our interview
with this recipient, we noted broken furniture and very few personal possessions. After
we brought this to HCGP’s attention, the conserved funds were used to purchase
furniture, clothes, and to prepay burial expenses. Nevertheless, while the conserved
fund balance exceeded $2,000, this recipient was not entitled to SSI payments, and, as
a result, was overpaid $13,528.

We expanded our sample of conserved funds cases to include all 571 beneficiaries
under HCGP’s care. We identified 12 additional beneficiaries with accounts that
exceeded the $2,000 conserved funds limit. As a result, SSA overpaid the 13 SSI
beneficiaries $66,402 from May 1, 2000 through February 2002.9 The overpayments
may not have occurred if HCGP had reported the conserved fund balances to SSA
through personal contact or via the RPR. Our review of the only four RPRs SSA could
provide disclosed that actual beginning account balances were not reported to SSA and
therefore SSA could not identify conserved fund balances exceeding the $2,000 limit.
We were told by HCGP personnel that caseworkers were instructed to exclude
balances carried over from prior years and to only show current period receipts and
expenditures when filing the RPR. This practice had the affect of underreporting
conserved fund balances to SSA.




8
    POMS GN 00502.113 and SI 01110.003.
9
  The audit period ended on April 30, 2001. However, the beneficiary’s conserved funds balance continued
to exceed the limit after that date. The overpayment reported was calculated through February 2002.


Financial-Related Audit of HCGP – an Organizational Rep Payee for SSA (A-04-02-12020)               6
HCGP Continued to Receive SSA Benefits for Missing Beneficiaries

According to SSA regulations, Rep Payees must notify SSA of any event that affects
the recipient’s entitlement to benefits.10 This requirement includes instances when
recipients are physically not under the Rep Payee’s care.

We were unable to locate 2 of the 12 SSA beneficiaries selected for interview. One of
the beneficiaries fled his personal care home and had been missing for about
3 months. We later learned that the beneficiary became intoxicated, was admitted to a
local county hospital, and subsequently died. HCGP notified SSA of the beneficiary’s
death, and benefits were stopped. However, HCGP collected $1,995 in benefits while
this individual was missing, which constitutes a benefit overpayment.

The second beneficiary has been missing since November 2000. As of May 3, 2002,
this beneficiary remained in current pay status with HCGP receiving about $350 a
month in title II benefit payments on the beneficiary’s behalf. For 18 months, HCGP
continued to collect the beneficiary’s benefits but made no disbursements for room and
board or personal expenses. HCGP claimed it notified SSA in December 2001 that this
beneficiary was missing; however, neither HCGP nor SSA records support this claim.

SSA records indicated it was notified on May 13, 2002, after our discovery of this
information, that the beneficiary was missing and benefits suspended, leaving an
overpayment of $7,101.

HCGP Did Not Effectively Safeguard the Disbursement of Social
Security Benefits
HCGP did not adequately
safeguard the disbursement               Expenditures Lacking Proper Documentation
of SSA funds. From our
review of 50 beneficiary case
files representing $300,640 in                                            Documented
                                                                          Expenditures
expenditures, HCGP could                                                     65%
not provide support for
$106,278 (35 percent).                 Undocumented
Based on the population of              Expenditures
                                           35%
571 beneficiaries with total
expenditures of $3,551,151,
we project that undocumented transactions may exceed $1,213,691.11
Our audit of HCGP’s receipts and disbursements disclosed that HCGP did not follow
basic accounting practices that would protect beneficiary assets. For our sample of
50 beneficiaries, we found the following.

10
     20 C.F.R. 404.2055 and 20 C.F.R. 416.635.
11
     See Appendix C.


Financial-Related Audit of HCGP – an Organizational Rep Payee for SSA (A-04-02-12020)    7
·     HCGP’s bank statements were not reconcilable with HCGP’s accounting records.

·     HCGP’s Rep Payee bank account was improperly titled Harris County Housing and
      Community Development Social Services Division Guardianship Program.
      According to POMS, the title of an account containing funds for more than one SSA
      beneficiary must show that the funds belong to the beneficiaries and not just the
      Rep Payee.12

Also, HCGP’s accounting duties were not adequately segregated, and the
disbursement process lacked controls. Of our sample of 946 expenditures,
342 (36 percent) were not adequately documented with an invoice or receipt, and
61 (11 percent) were not approved by HCGP supervisory personnel.

With approximately 36 percent of all                         Approved Expenditures
purchases undocumented, HCGP could                                             With Proper
not demonstrate to our satisfaction that                                        Approval
                                                                                  89%
SSA benefit disbursements were being
properly safeguarded.


               Documented Expenditures
                                                       Lacking Proper
                                     Receipt or           Approval
                                      Invoice               11%
                                     Provided
                                        64%       The likelihood of misappropriations was
                                                  greatly increased by HCGP’s failure to
                                                  maintain an approved vendor list and allow
                                                  payments to be made by HCGP personnel
            Lacking
                                                  without proper oversight. In fact, as
           Receipt or                             discussed below, two HCGP employees
            Invoice
              36%
                                                  were convicted of misappropriating
                                                  $114,593 during our audit period.

·     An HCGP caseworker pled guilty and was convicted on January 7, 2002 of
      tampering with Government records. The HCGP employee converted beneficiary
      funds, estimated at $5,038, for his personal gain. The employee fraudulently paid a
      beneficiary’s room and board through a fictitious vendor while the beneficiary
      actually lived in another location and purchased furniture for a beneficiary that was
      never received. The caseworker is paying $300 per month restitution to HCGP.




12
     POMS GN 00603.010 and .020.


Financial-Related Audit of HCGP – an Organizational Rep Payee for SSA (A-04-02-12020)        8
·   Another HCGP caseworker was convicted on March 14, 2002 of theft by a public
    servant. The caseworker was found to have embezzled $109,555 from 31 HCGP
    beneficiaries’ accounts. The employee created fictitious companies through which
    he diverted beneficiary assets by charging their accounts for services not provided.
    HCGP had no procedures, including an approved vendor listing, to prevent the
    creation of fictitious vendors. The caseworker received a 4-year prison sentence.
    HCGP is seeking restitution through its private insurance company. Of the
    $109,555, we found that $52,062 was SSA beneficiaries’ funds.

The Harris County Auditor’s Office disclosed similar findings in its review of HCGP. A
summary of its findings is presented in Appendix D.

SSA Should Improve Its Oversight of HCGP

SSA is responsible for tracking Rep Payee assignments and monitoring Rep Payee
performance. SSA’s principle means of tracking is through the RPS, and monitoring is
performed through RPRs as well as on-site reviews of Rep Payees.

Rep Payee System Did Not Reflect HCGP Beneficiaries

The RPS information for HCGP was inaccurate. We identified 19 beneficiaries who
were not accurately reflected on the RPS. Of the 19 beneficiaries, 18 were incorrectly
listed in the RPS as being under HCGP’s care. The remaining beneficiary was listed on
the RPS as terminated but was actually receiving assistance from HCGP. We could
not determine the causes for the RPS’ errors and omissions. However, inaccurate and
missing information on the RPS could result in SSA using erroneous or incomplete data
in its oversight and evaluation of Rep Payees.

SSA FO Could Not Provide HCGP’s Review Report

On-site reviews are used in the oversight and monitoring of Rep Payees and include
interviews with the Rep Payee, reviews of accounting records for a sample of
beneficiaries, and interviews with beneficiaries to determine whether their needs are
being met and they are experiencing any problems. These reviews are beneficial to
educating the organization, opening the lines of communication between the payee and
the SSA servicing FO, taking a closer look at how the Rep Payee handles the
beneficiaries' funds, and deterring and detecting fraud and abuse.

SSA’s Houston FO stated that a review was conducted at HCGP in December 1999.
However, the FO was unable to provide us a copy of the HCGP report or any working
papers. The FO staff person who performed the review stated the HCGP visit was
completed in less than 1 hour and was limited to selecting a sample of five beneficiaries
and examining their supporting records. The reviewer did not interview the
beneficiaries or visit the facilities to which they were assigned. No problems were
identified during the visit because this minimal effort did not involve a detailed review of



Financial-Related Audit of HCGP – an Organizational Rep Payee for SSA (A-04-02-12020)   9
expenditures or direct contact with beneficiaries. A complete review would have most
likely identified many of the deficiencies disclosed in this report.

If SSA plans to retain HCGP as a Rep Payee for the 571 indigent beneficiaries
entrusted to its care, SSA needs to improve its oversight of the Rep Payee through
increased monitoring. The on-site visit would be the primary mechanism to assure that
HCGP is operating in accordance with SSA’s instructions.




Financial-Related Audit of HCGP – an Organizational Rep Payee for SSA (A-04-02-12020)   10
                                                    Conclusions and
                                                   Recommendations
Generally, HCGP did not meet its overall Rep Payee responsibilities. HCGP needs to
make significant changes and improvements in several areas of its Rep Payee
program. Therefore, we recommend that SSA

1. Determine whether HCGP should remain as a Rep Payee. If HCGP remains as a
   Rep Payee, SSA should increase its oversight of HCGP until its Rep Payee
   performance is improved and is in accordance with SSA instructions.

2. Instruct HCGP to submit guardianship fee assessments to the SSA FO for review
   and approval.

3. Review the appropriateness of all guardianship fees paid from SSA beneficiaries’
   funds since HCGP began serving as Rep Payee and instruct HCGP to return
   unapproved and/or excessive fees to affected beneficiaries.

4. Instruct HCGP to monitor beneficiaries’ accounts to ensure that conserved funds do
   not exceed the $2,000 limit.

5. Calculate and collect overpayments resulting from the 13 beneficiaries’ accounts we
   identified that contain conserved fund balances exceeding $2,000.

6. Instruct HCGP to transfer conserved fund balances for individuals no longer under
   its care to the successor Rep Payee or SSA.

7. Recover from HCGP $9,096 in benefits received for the two beneficiaries we
   determined were not under its care during our audit period.

8. Provide guidance to HCGP regarding the appropriate level of documentation to
   account for the receipt and disbursement of SSA benefits in accordance with SSA’s
   policies and procedures.

9. Instruct HCGP to title its bank account to reflect that the ownership of the deposits
   also belongs to SSA beneficiaries.

10. Direct HCGP to return the beneficiaries’ funds that were misappropriated by its two
    former employees to the affected beneficiaries’ accounts.

11. Update RPS to reflect the current beneficiaries under HCGP’s care.




Financial-Related Audit of HCGP – an Organizational Rep Payee for SSA (A-04-02-12020)   11
AGENCY COMMENTS

SSA agreed with most of our recommendations. SSA disagreed with
Recommendation 2. SSA Region VI management responded that SSA policy does not
require a Rep Payee to obtain SSA approval before charging guardianship fees;
therefore, it would not require HGCP to submit its fees to the SSA FO for approval.

SSA provided a qualified agreement on Recommendation 3. SSA agreed to conduct a
case-by-case review of excessive fees based on the outcome of a pending legal
interpretation by HCGP of the Texas laws addressing guardianship fees. See Appendix
A for the full text of SSA’s comments.

REP PAYEE COMMENTS

We requested HCGP to comment on the findings and recommendations related to its
duties as a Rep Payee (Recommendations 2 through 10). HCPG agreed with all of the
recommendations except for Recommendation 3. HCGP stated it did not believe that
Texas law limits guardianship fees to 5 percent of a guardian’s income. See Appendix
B for the full text of HCGP’s comments.

OFFICE OF THE INSPECTOR GENERAL RESPONSE
We concur with SSA’s response that it will work to improve HCGP’s performance
through increased oversight. Moreover, SSA stated that the Houston Southeast FO is
committed to improving HCGP’s performance and has already begun by changing its
review process and providing additional training to HCGP’s personnel. We believe
these steps should improve the Rep Payee’s performance to an acceptable level.

Regarding Recommendation 2, we maintain that SSA should instruct HCGP to submit
guardianship fee assessments to the SSA FO for review and approval. We believe
such a recommendation is warranted based on the pervasive problems found during
our review of HCGP. SSA cannot evaluate the reasonableness of these fees without
such a review.

Regarding Recommendation 3, we continue to have concerns about the
appropriateness of the guardianship fees and whether they comply with Texas law.
Therefore, SSA should review all relevant information concerning this matter and obtain
legal opinions, as needed, to determine whether the guardianship fees are appropriate.
SSA should then inform HCGP, and other Rep Payees in the State of Texas who may
be affected, of its decision. Finally, SSA should develop policy instructions so SSA staff
can determine whether assessed guardianship fees are excessive.




Financial-Related Audit of HCGP – an Organizational Rep Payee for SSA (A-04-02-12020)   12
                                                              Other Matters
Probate Court’s Directions Were Not Followed

The Probate Court ordered HCGP to place five of the beneficiaries in our sample in a
care facility licensed by the State of Texas. We determined that 2 of the 50
beneficiaries were actually housed in unlicensed facilities. HCGP personnel did not
take the necessary steps to verify that facilities housing its beneficiaries were licensed.
As a result, the individuals may not have been provided the level of care envisioned by
the Court.

According to the Texas Department of Human Services (DHS), licensure of personal
care facilities is required to “promote the public health, safety, and physical and mental
well-being of the residents and to provide for the development, establishment, and
enforcement of standards.” The licensing standards for personal care facilities contain
the minimum standards a facility must meet. Licenses are address-specific meaning
that each location must be licensed individually. The State license expires 12 months
from the date issued and is not automatically renewed.

Personal care facilities are defined as establishments that furnish food and shelter for
four or more persons who are unrelated to the owner. Staffs at these facilities provide
varying degrees of assistance for everyday living. Bedrooms in personal care facilities
must have no more than four beds (one person per bed) and must contain not less than
60 square feet per bed, or less than 240 square feet for a four-person bedroom.
Furnishings must be maintained in good repair.

The Court had ordered HCGP to place one SSA beneficiary in a specific licensed
facility. No other accommodations were authorized without a further Court order. The
residential restriction was to remain in effect until January 18, 2002. In
September 2001, we found the beneficiary living at a facility other than the one
identified in the Court’s Letter of Guardianship. This facility violated Texas license and
certification requirements because the facility housed more than four persons and
shared services with a related licensed assisted living facility. As noted previously,
licenses are address-specific and this location should have been licensed, but was not.

The HCGP beneficiary located at this facility carried the human immunodeficiency virus
(HIV)13 with open sores and shared one shower, sink and toilet with two other men.
State law dictates that facility residents may not have a disease that could endanger
other residents. The other residents were apparently unaware the beneficiary had HIV.
An HCGP supervisor explained that individuals carrying HIV are difficult to place
because of their medical and financial condition. However, placing this individual in an
illegal, unlicensed facility was contrary to the Court’s instructions, and there was no

13
     HIV can be spread through contact with infected blood.



Financial-Related Audit of HCGP – an Organizational Rep Payee for SSA (A-04-02-12020)   13
evidence in the file to show that the alternative arrangements were approved by the
Court as directed in the Letter of Guardianship. During our audit period, the beneficiary
never resided at the Court-ordered facility.

In the other case, the SSA beneficiary lived in an unlicensed facility from
November 2000 to September 2001. For this particular beneficiary, the Court’s Letter
of Guardianship was silent on the beneficiary’s placement in a licensed facility.
However, we discussed this matter with the Probate Court Judge, who told us that
HCGP was specifically instructed to place all the beneficiaries from his Court into only
licensed facilities, regardless of whether the guardianship letter includes specific
language to that effect.

In our sample of 50, 8 beneficiaries should have been placed in licensed facilities. Of
the 8 beneficiaries, 5 were living in unlicensed facilities. Furthermore, we found that the
Court orders for these beneficiaries did not stipulate housing in licensed facilities.
When we discussed this with the Probate Court Judge, he stated that he was under the
assumption that HCGP understood that these beneficiaries were to be housed in
licensed facilities. We found that one of the five beneficiaries lived in one room with
five other men. Twelve residents lived in this facility. Since the facility housed more
than four persons, it needed to be licensed under Texas law. Without a license, the
facility was operating illegally. Apparently, HCGP either did not verify or ignored the
fact that the facility was not licensed with the State. Shortly after our visit in
September 2001, the facility was abandoned, and the residents were relocated to other
facilities.

HCGP needs to ensure that all its beneficiaries are provided the specific level of care
dictated by the Texas probate courts.

Representative Payee Reports

To determine whether HCGP properly completed and submitted RPRs, we requested
the most recently completed RPRs from SSA for 37 of the Rep Payee’s beneficiaries.14
SSA provided only 25 RPRs. Because SSA did not provide all the RPRs requested, we
could not independently confirm that HCGP met its reporting responsibilities. Also, for
the 12 RPRs SSA did not provide, we could not determine whether HCGP properly
submitted the reports. In addition, we were unable to determine whether the reason
some RPRs were not provided was because they could not be located or because they
were just never submitted.

Of the 25 RPRs reviewed, two RPRs matched the specific dates of our audit period.
One of these two reports did not match the internal accounting records of HCGP. For
example, the RPR showed $5,560 in expenditures for food and housing and $656 for
other expenses such as clothing, education, medical and dental expenses and personal
items. However, HCGP internal records indicate only $5,090 was spent for food and

14
  Since RPRs are filed annually beginning 12 months after initial assignment to the Rep Payee, only
37 beneficiaries out of our sample of 50 would have required a RPR filing during the audit period.


Financial-Related Audit of HCGP – an Organizational Rep Payee for SSA (A-04-02-12020)                 14
housing and $340 was spent for other items. Only one of the two RPRs appropriately
reported conserved savings from prior years.

Of the 25 RPRs reviewed, we determined most did not match HCGP’s internal records.
In three cases, the amount HCGP claimed to have spent did not match the amount of
benefits paid. Twenty-three of the 25 RPRs were for different reporting periods that
precluded us from determining the account balances for the beneficiaries. None of the
23 RPRs correctly indicated the amount of savings, from prior years that had accrued
for the beneficiary. In fact, four of the beneficiaries’ accounts had been depleted until
the beneficiary’s account balance was negative. For example, HCGP provided
information to SSA that one beneficiary had $1,757 saved but the beneficiary’s account
balance at the end of the RPR reporting period was $6,051. In another case, the
beneficiary’s ending account balance was $3,355 but HCGP reported the beneficiary
had $0 savings at the end of the RPR reporting period. Both of these beneficiaries
were receiving SSI only. Their large account balances should have been spent down
because they were above the $2,000 resource limit, making the beneficiaries ineligible
for SSI benefits.




Financial-Related Audit of HCGP – an Organizational Rep Payee for SSA (A-04-02-12020)   15
                                            Appendices




Financial-Related Audit of HCGP – an Organizational Rep Payee for SSA (A-04-02-12020)
                                                                          Appendix A

Agency Comments




Financial-Related Audit of HCGP – an Organizational Rep Payee for SSA (A-04-02-12020)
                                           SOCIAL SECURITY

MEMORANDUM

Date:           October 11, 2002

To:             James G. Huse, Jr.
                Inspector General

From:          Horace L. Dickerson, Jr.
               Regional Commissioner
               Dallas

Subject:        Financial-Related Audit of the Harris County Guardianship Program (A-04-02-12020)—
                INFORMATION


           We appreciate your very thorough review and report on the Harris County Guardianship Program
           (HCGP), a large organizational payee in Houston, Texas. The Guardianship Program was originally
           created in 1975 by the Commissioners Court as part of the Harris County Community Development
           Agency. In 1994, this agency merged with the Harris County Housing Authority and in 1997 with the
           Harris County Department of Social Services. HCGP serves as public guardian for Harris County’s
           wards pursuant to Section 669 of the Texas Probate Code. HCGP is currently guardian for over 1,000
           wards. At the time of the review, HCGP served as payee for 571 Social Security (SS) or Supplemental
           Security Income (SSI) beneficiaries and recipients.




           Financial-Related Audit of HCGP – an Organizational Rep Payee for SSA (A-04-02-12020)            A-1
COMMENTS OF THE SOCIAL SECURITY ADMINISTRATIONS (SSA) REGION VI ON THE
FINANCIAL-RELATED ADUIT OF THE HARRIS COUNTY GUARDIANSHIP PROGRAM
(A-04-02-12020)

The OIG report cites the following findings and provides recommendations for corrective action. Our
comments follow each recommendation.

Finding––HCGP did not effectively safeguard the receipt and disbursement of SSA benefits and use and
          account for those benefits in accordance with SSA policies and procedures.

Recommendations–– The report contained three recommendations related to this finding:

   1. Evaluate whether HCGP should remain as a representative payee.

   2. If HCGP remains as a rep payee, SSA should increase its oversight of HCGP until its
      performance as a payee is improved and is in accordance with SSA instructions.

   3. Provide guidance to HCGP regarding the appropriate level of documentation to account for the
      receipt and disbursement of SSA benefits in accordance with SSA’s policies and procedures.

Response––We agree with the findings and recommendations.

   We believe as long as HCGP is the court appointed public guardian for Harris County wards (many
   of whom are our beneficiaries and recipients) that it is in the best interest of our beneficiaries and
   recipients for SSA to work with them to improve their performance as a representative payee to an
   acceptable level. The meetings and contacts we have had with HCGP as a result of OIG’s audit
   indicate eagerness by managers and employees to improve their performance as a representative
   payee.

   We believe it is important to note the Harris County Auditor’s Office had performed earlier financial
   audits of HCGP that identified internal financial management problems and that HCGP was moving
   toward corrective action in many respects prior to the initiation of OIG’s financial audit in July 2001.
   Department of Social Services management officials uncovered the malfeasance of the two HCGP
   employees who were subsequently convicted.

   OIG’s audit uncovered significant and serious deficiencies in the performance of HCGP’s duties and
   responsibilities as a payee. We agree an increase in its oversight is warranted until the payee’s
   performance improves and is in accordance with SSA instructions. The Houston Southeast District
   Office (DO) is committed to work diligently with this payee to improve their level of performance.
   Activity in this regard has already begun.

   ·   On August 8, 2002, the District Manager issued instructions to her staff that all actions involving
       this payee required management review prior to being processed. These internal reviews will
       continue until the payee can be certified as performing its duties adequately and appropriately.
   ·   On September 12, 2002 and again on September 19, 2002, the DO staff conducted training for 40
       HCGP managers and employees on their payee duties and responsibilities. This training covered
       SSI eligibility requirements, living arrangements, income, monitoring resources limits, and



Financial-Related Audit of HCGP – an Organizational Rep Payee for SSA (A-04-02-12020)                  A-2
        reporting responsibilities for both SS and SSI beneficiaries and recipients. In addition,
        completion of the SSA-623, including reporting of conserved funds was covered.
    ·   Maintaining proper records of receipts and disbursements has been discussed with the payee and
        the payee has informed us they have made appropriate changes to its accounting systems and
        record retention policies.
    ·   We have formed a special cadre that is undertaking an intensive review of the payee’s records for
        all SSI beneficiaries to determine whether additional overpayments or other irregularities are
        involved. This review will include months outside of the audit’s review period.
    ·   The Dallas Region’s Representative Payee Cadre will conduct a random review of 15
        beneficiaries in the first quarter of CY 2003. A full review will be scheduled for one year later
        unless problems are discovered in the random review. If problems are discovered, the full review
        will be undertaken immediately. This activity will allow continuous evaluation of the payee’s
        performance.

Findings–– The report contained three findings related to guardianship fees:

    1. HCGP charged fees to SS beneficiaries and SSI recipients in violation of the Texas Probate code;

    2. HCGP did not secure SSA’s approval to assess guardianship fees; and

    3. HCGP charged fees in excess of the amount allowed by the Texas Probate Code and POMS
       00602.040.

Recommendations––The report contains two recommendations regarding guardianship fees:

    1. Instruct HCGP to submit guardianship fee assessments to the SSA field office for review and
       approval.

    2. Review the appropriateness of all guardianship fees paid from SSA beneficiary funds since
       HCGP began serving as Rep Payee and instruct HCGP to return unapproved fees to affected
       beneficiaries.

Response–– We do not agree that the payee was required to have consulted with SSA before charging a
   guardianship fee. OIG cited POMS GN 00602.040 as the basis for the first finding. We consulted
   with the Office of Benefit Programs, Representative Payee Staff, and they concurred that the intent
   and focus of this section of POMS is to provide instructions for evaluating whether assessed
   guardianship fees are excessive. However, there is no POMS instruction requiring a payee guardian
   to secure SSA’s approval prior to charging a guardianship fee.

    With regard to the second recommendation, it is our understanding that HCGP officials disagree with
    OIG’s interpretation on the Code. We will leave this issue to the payee to dispute.

    However, the DO will proceed to make an actual case by case determination of excess fees
    depending on how the legal issue of whether fees were charged in violation of the Texas Probate
    Code is resolved. If no fees should have been charged, all fees charged will have to be remitted. If
    fees are allowed under the Code, we will make the determination, considering both the Texas Probate




Financial-Related Audit of HCGP – an Organizational Rep Payee for SSA (A-04-02-12020)                A-3
   Code and the guidelines in POMS, as to whether the fees were excessive. Some cases may require
   referral to the Regional Office of General Counsel.

Finding––HCGP did not properly monitor conserved fund balances resulting in overpayments to SSA
   beneficiaries.

Recommendations––The report contains two recommendations for this finding:

   1. Instruct HCGP to monitor beneficiaries’ accounts to ensure that conserved funds do not exceed
      the $2,000 limit, and

   2. Calculate and collect overpayments resulting from the 13 beneficiaries’ accounts we identified
      that contain conserved funds balances exceeding $2,000.

Response––We agree with this finding and the recommendations.

   The DO provided training to HCGP on this issue. Further, HCGP has instituted monitoring
   processes in their system to alert the caseworker before an individual account exceeds $2,000.

   We are working with the payee to adjudicate the overpayments OIG discovered for the 13 sampled
   individuals whose accounts were over $2,000. OIG provided the list of overpaid beneficiaries to the
   local office on August 27, 2002. We have formed a cadre to work with HCGP to review as quickly
   as possible the financial records of all remaining beneficiaries and appropriately adjudicate any
   overpayments found.

Finding––HCGP collected SSA benefits for beneficiaries who were missing or no longer in its care.

Recommendations––The report contains two recommendations for this finding:

   1. Instruct HCGP to transfer conserved fund balances for individuals no longer under its care to the
      successor Rep Payee or SSA.

   2. Recover from HCGP $9,096 in benefits received for the two beneficiaries we determined were
      not under its care during our audit period.

Response––We agree with the findings and recommendations.

   Please note that per POMS GN 00603.055A, Transfer of Conserved Funds, a representative payee
   who has conserved or invested funds for a beneficiary, but is no longer serving as payee for the
   beneficiary, must return the funds to SSA for re-issuance [our underscore] to either the successor
   payee or to the beneficiary in direct payment.

   The DO has provided this instruction to the payee during the training sessions. The payee has also
   been instructed to report when a beneficiary’s whereabouts are unknown for 10 days.

   The DO will proceed to recover the funds for the beneficiary who is still alive and ensure that the
   beneficiary receives them. For the beneficiary who is deceased, to the extent the benefits were
   payable, we will instruct the payee to dispose of those funds pursuant to Texas State intestacy laws.




Financial-Related Audit of HCGP – an Organizational Rep Payee for SSA (A-04-02-12020)                A-4
Finding––HCGP misappropriated at least $52,062 in SSA beneficiaries’ monies through employee theft.

Recommendation–– Direct HCGP to return the beneficiary funds misappropriated by its two
   former employees to the affected beneficiaries’ accounts.

Response––We agree with the intent of the finding and the recommendation and will work with
   the payee to properly credit any beneficiary whose funds were misappropriated.

Finding–– HCGP’s collective bank account was improperly titled Harris County Housing and
   Community Development Social Services Division Guardianship Program. According to
   POMS, the title of an account containing funds for more than one SSA beneficiary must
   show that the funds belong to the beneficiaries and not just the Rep Payee.

Recommendation–– Instruct HCGP to title its bank account to reflect that the ownership of the
   deposits also belongs to SSA beneficiaries.

Response––We agree and in a letter to HCGP dated September 5, 2002, the District Manager
   instructed the payee on the correct way to title a beneficiary account.

Finding––The Representative Payee System (RPS) lists 18 beneficiaries for HCGP who were
   not under the payee’s care and 1 beneficiary as terminated on RPS but actually receiving
   benefits.

Recommendation–– Update RPS to reflect the current beneficiaries under HCGP’s care.

Response––The DO will work to ensure that RPS properly reflects the beneficiaries for whom
   HCGP is payee.

In another issue raised by OIG’s report, OIG cited SSA for failing to conduct “a more thorough
review” when an “onsite review” was conducted of the payee in December 1999.

The December 1999 review cited by OIG was not an onsite review. It was a review in response
to the Southeastern Program Service Center’s request to update the collective bank account
precedent file for HCGP. POMS GN 00603.020 requires that these precedents be updated every
3 years. POMS suggests that the DO review one beneficiary account over a period of one year.
The DO exceeded that suggestion by reviewing five beneficiary accounts. There was no
requirement to go beyond a review of the beneficiary accounts if nothing irregular was found.
We also believe the collective bank account was appropriately titled at the time of that review
and subsequently changed as a result of the fiscal audits conducted by the county.

Therefore, the DO was not required to do a more in-depth review. It should be noted that SSA’s
instructions for conducting onsite reviews of large organizational payees were not issued until
June 2000.




Financial-Related Audit of HCGP – an Organizational Rep Payee for SSA (A-04-02-12020)          A-5
Other findings and recommendations in the report are more appropriately addressed by the payee.
However, in our future monitoring of this payee’s performance, all areas of deficiency cited by
OIG will be reviewed. If you would like to discuss this, please call me. If your staff has
questions, please have them call Jim Matthews at (214) 767-2808 in Management and Operations
Support.




Financial-Related Audit of HCGP – an Organizational Rep Payee for SSA (A-04-02-12020)      A-6
                                                                          Appendix B

Representative Payee Comments




Financial-Related Audit of HCGP – an Organizational Rep Payee for SSA (A-04-02-12020)
Financial-Related Audit of HCGP – an Organizational Rep Payee for SSA (A-04-02-12020)   B-1
    HCGP RESPONSES TO OIG’S CONCLUSIONS AND
              RECOMMENDATIONS


1. Instruct HCGP to submit guardianship fee assessments to the SSA FO for
   review and approval.

   HCGP will work with the SSA local office on this recommendation. HCGP
   will submit the guardianship fee assessments to the SSA filed office for review,
   however, after consulting with SSA and the Harris County Attorney’s office,
   and based on Texas Administrative Code, Title 40 15.502 (f), the authority of
   the Probate Judge to set a guardianship fee arises solely from the Texas
   Administrative Code, which has no 5% limit, nor any prior approval
   requirement.

2. Review the appropriateness of all guardianship fees paid from SSA
   beneficiaries’ funds since HCGP began serving as Rep Payee and instruct
   HCGP to return unapproved and excessive fees to affected beneficiaries.

   After reviewing these matters with both OIG and the SSA local and regional
   offices (as indicated earlier), HCGP hopes to come to a consensus. However,
   HCGP respectfully disagrees with OIG’s finding that these fees or unapproved
   or that they are excessive. Texas Probate Code Section 665(b) provides that all
   requests for guardianship fees be reviewed and approved by the appropriate
   Probate Courts. Thus, there has been a finding by the respective court that the
   guardianship fees requested are reasonable. SSA can contest the amount in
   court through its regional chief counsel.

3. Instruct HCGP to monitor beneficiaries’ accounts to ensure that conserved
   funds do not exceed the $2,000 limit.

   HCGP has begun this process. In July of 2002, through the Harris County
   Central Technology Center, HCGP instituted the preparation of a monthly
   report that flags all conserved accounts that exceed $1,700. This enables the
   case managers and supervisors the opportunity to develop an “Action Plan” to
   spend down the funds and better monitor the balances and insure that they
   remain under $2,000.

Financial-Related Audit of HCGP – an Organizational Rep Payee for SSA (A-04-02-12020)   B-2
4. Calculate and collect overpayments resulting from the 13 beneficiaries’
   accounts we identified that contain conserved fund balances exceeding
   $2,000.

   After being provided with the identities of these wards by the SSA local office,
   HCGP will further review the status of the accounts and take appropriate action
   to resolve these issues.

5. Instruct HCGP to transfer conserved funds balances for individuals no
   longer under its care to the successor Representative Payee or SSA.

   HCGP would like to discuss with SSA personnel options for when a missing
   ward should be reported and benefits cut off and/or restored, given the fact that
   there is such a delay between the time a ward is reported missing and payments
   cut off and a concomitant lag in when benefits can be returned.

   HCGP will promptly review ward cases to determine those no longer under its
   care and will take steps to transfer to the successor Rep payee or SSA, as
   appropriate, the funds remaining, after probate court approval.

6. Recover from HCGP $9,096 in benefits received for the two beneficiaries
   we determined were not under its care during our audit period.

   This has already been accomplished. On July 2, 2002 HCGP returned benefits
   in the amount of $9,777.70 for one beneficiary identified in the audit report,
   and HCGP is prepared to return benefits to the other beneficiary upon the
   pending notification by SSA of the amount due.

7. Provide guidance to HCGP regarding the appropriate level of
   documentation to account for the receipt and disbursement of SSA benefits
   in accordance with SSA’s policies and procedures.

   With the generous offer of the SSA local office, HCGP is happy to accept more
   guidance on this and other payee duties. In addition, HCGP hired a Purchasing
   Agent in August 2001 and established policies and procedures to complement
   SSA guidelines to insure that appropriate documentation is prepared to account
   for all disbursements of SSA funds to assure they benefit the wards served.
   HCGP is happy to work with the SSA office on this and other matters of
   concern for the benefit of the beneficiaries and the two programs


Financial-Related Audit of HCGP – an Organizational Rep Payee for SSA (A-04-02-12020)   B-3
8. Instruct HCGP to title its bank account to reflect that the ownership of the
   deposits also belongs to SSA beneficiaries.

   HCGP changed the names on bank accounts August 13, 2002, in accordance
   with SSA guidelines. The bank accounts are now styled “Harris County
   Guardianship Program Rep Payee SS and SSI Benes and Other Beneficiaries.”
   This indicates that the funds do not belong to HCGP but to the SSA
   beneficiaries.

9. Direct HCGP to return the beneficiaries’ funds that were misappropriated
   by its two former employees to the affected beneficiaries accounts.

   Prior to the exit conference and in an effort to protect the wards’ accounts
   affected, HCGP began this process last year. In one case the former employee
   was imprisoned. In this matter, a claim was made under a theft insurance policy
   for the misappropriated funds and the claim has been approved. The funds are
   being processed for receipt by the county. In the other case, restitution by the
   former employee is being paid as a condition of his probation. Once fully
   received, the funds will be reallocated to the appropriate ward accounts.




Financial-Related Audit of HCGP – an Organizational Rep Payee for SSA (A-04-02-12020)   B-4
                                                                          Appendix C

Sampling Methodology and Results
To complete our objective, we obtained a list from Harris County Guardianship Program
(HCGP) of all individuals for whom HCGP was serving as a Rep Payee at any time
between May 1, 2000 and April 30, 2001. From this list of 571 beneficiaries, we
selected a random sample of 50 cases for detailed review. We believe our findings
related to these 50 individuals are representative of the total population of 571. The
results of our review of the sample cases are shown in the table below. Our projections
were made at the 90-percent confidence level.

                                      Sample Results
   Population size         571 cases    SSA Receipts                       $3,179,769
                                        Total Disbursements                $3,551,151
                                        Total Number of                        11,118
                                        Disbursements
   Sample size             50 cases     SSA Receipts                         $256,036
                                        Total Disbursements                  $300,640
                                        Total Number of                           946
                                        Disbursements
                                        Attributes
   Cases with unsupported                             30 cases               $106,278
   expenditures
                                  Attribute Projection

   Sampled expenditures not supported                                              342
   Projection of expenditures not supported in population                        4,019
   Projection lower limit                                                        3,743
   Projection upper limit                                                        4,302
                                Variable Projection
   Sampled expenditures not supported                                        $106,278
   Projection of unsupported expenditures                                  $1,213,691
   Projection lower limit                                                    $784,368
   Projection upper limit                                                  $1,643,014




Financial-Related Audit of HCGP – an Organizational Rep Payee for SSA (A-04-02-12020)
                                                                          Appendix D

Harris County Auditor’s Report on Harris
County Guardianship Program
Before our audit, the Harris County Auditor reviewed the Social Service Division’s bank
accounts, including the Harris County Guardianship Program (HCGP) account because
of significant overdraft charges of $8,500. The overdrafts occurred because
reimbursement requests for the general assistance bank account were not submitted
timely. Instead, HCGP improperly redirected $315,000 in guardianship income that
included SSA benefits from the guardianship account to the general assistance account
to cover cash shortages. The amounts were replenished; however, in his July 6, 2001
report, the County Auditor concluded that HCGP’s controls over receiving and
depositing guardianship income, processing disbursements, and maintaining the
beneficiaries’ accounting records did not provide the necessary internal controls to
safeguard assets. Specifically, HCGP did not properly reconcile its bank account
balance with the accounting system. The auditor reported that the bank account
balance exceeded the County’s ledger balance by $71,000.

The auditors also found that caseworker duties were not properly segregated.
Caseworkers could request, purchase, receive and distribute goods. In addition,
supporting documentation for purchases was not always reviewed by management and
maintained in the beneficiaries’ file. The County Auditor concluded that, overall, there
was a general lack of management oversight and HCGP’s controls over receipts and
disbursements were characterized as inadequate. In particular, the purchasing process
was seen as inefficient and lacking necessary controls to protect beneficiaries’ funds
from misuse.




Financial-Related Audit of HCGP – an Organizational Rep Payee for SSA (A-04-02-12020)
                                                                          Appendix E

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Paul Davila, Acting Director, Southern Audit Division, (214) 767-6317

   Frank Nagy, Deputy Director, Atlanta Field Office, (404) 562-5552

Acknowledgments

In addition to the persons named above:

   Mark Bailey, Deputy Director

   Catherine Burnside, Senior Auditor

   David McGhee, Auditor

   Valerie Ledbetter, Auditor

   Kim Beauchamp, Writer-Editor


For additional copies of this report, please visit our web site at http://www.ssa.gov/oig or
contact the Office of the Inspector General’s Public Affairs Specialist at (410) 966-1375.
Refer to Common Identification Number A-04-02-12020.




Financial-Related Audit of HCGP – an Organizational Rep Payee for SSA (A-04-02-12020)
                          DISTRIBUTION SCHEDULE

Commissioner of Social Security
Management Analysis and Audit Program Support Staff, OFAM
Inspector General
Assistant Inspector General for Investigations
Assistant Inspector General for Executive Operations
Assistant Inspector General for Audit
Deputy Assistant Inspector General for Audit
Director, Data Analysis and Technology Audit Division
 Director, Financial Audit Division
 Director, Southern Audit Division
 Director, Western Audit Division
 Director, Northern Audit Division
 Director, General Management Audit Division
Team Leaders
Income Maintenance Branch, Office of Management and Budget
Chairman, Committee on Ways and Means
Ranking Minority Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman, Subcommittee on Social Security
Ranking Minority Member, Subcommittee on Social Security
Majority Staff Director, Subcommittee on Social Security
Minority Staff Director, Subcommittee on Social Security
Chairman, Subcommittee on Human Resources
Ranking Minority Member, Subcommittee on Human Resources
Chairman, Committee on Budget, House of Representatives
Ranking Minority Member, Committee on Budget, House of Representatives
Chairman, Committee on Government Reform and Oversight
Ranking Minority Member, Committee on Government Reform and Oversight
Chairman, Committee on Governmental Affairs
Ranking Minority Member, Committee on Governmental Affairs
Chairman, Committee on Appropriations, House of Representatives
Ranking Minority Member, Committee on Appropriations,
 House of Representatives
Chairman, Subcommittee on Labor, Health and Human Services, Education
 and Related Agencies, Committee on Appropriations,
 House of Representatives
Ranking Minority Member, Subcommittee on Labor, Health and Human
 Services, Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman, Committee on Appropriations, U.S. Senate
Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman, Subcommittee on Labor, Health and Human Services, Education
 and Related Agencies, Committee on Appropriations, U.S. Senate
Ranking Minority Member, Subcommittee on Labor, Health and Human
 Services, Education and Related Agencies, Committee on Appropriations,
 U.S. Senate
Chairman, Committee on Finance
Ranking Minority Member, Committee on Finance
Chairman, Subcommittee on Social Security and Family Policy
Ranking Minority Member, Subcommittee on Social Security and Family Policy
Chairman, Senate Special Committee on Aging
Ranking Minority Member, Senate Special Committee on Aging
President, National Council of Social Security Management Associations,
  Incorporated
Treasurer, National Council of Social Security Management Associations,
  Incorporated
Social Security Advisory Board
AFGE General Committee
President, Federal Managers Association
Regional Public Affairs Officer
Harris County Guardianship Program, Representative Program
                   Overview of the Office of the Inspector General


                                            Office of Audit
The Office of Audit (OA) conducts comprehensive financial and performance audits of the
Social Security Administration’s (SSA) programs and makes recommendations to ensure that
program objectives are achieved effectively and efficiently. Financial audits, required by the
Chief Financial Officers' Act of 1990, assess whether SSA’s financial statements fairly present
the Agency’s financial position, results of operations and cash flow. Performance audits review
the economy, efficiency and effectiveness of SSA’s programs. OA also conducts short-term
management and program evaluations focused on issues of concern to SSA, Congress and the
general public. Evaluations often focus on identifying and recommending ways to prevent and
minimize program fraud and inefficiency, rather than detecting problems after they occur.

                                 Office of Executive Operations
The Office of Executive Operations (OEO) supports the Office of the Inspector General (OIG) by
providing information resource management; systems security; and the coordination of budget,
procurement, telecommunications, facilities and equipment, and human resources. In addition,
this office is the focal point for the OIG’s strategic planning function and the development and
implementation of performance measures required by the Government Performance and Results
Act. OEO is also responsible for performing internal reviews to ensure that OIG offices
nationwide hold themselves to the same rigorous standards that we expect from SSA, as well as
conducting investigations of OIG employees, when necessary. Finally, OEO administers OIG’s
public affairs, media, and interagency activities, coordinates responses to Congressional requests
for information, and also communicates OIG’s planned and current activities and their results to
the Commissioner and Congress.

                                      Office of Investigations
The Office of Investigations (OI) conducts and coordinates investigative activity related to fraud,
waste, abuse, and mismanagement of SSA programs and operations. This includes wrongdoing
by applicants, beneficiaries, contractors, physicians, interpreters, representative payees, third
parties, and by SSA employees in the performance of their duties. OI also conducts joint
investigations with other Federal, State, and local law enforcement agencies.

                                Counsel to the Inspector General
The Counsel to the Inspector General provides legal advice and counsel to the Inspector General
on various matters, including: 1) statutes, regulations, legislation, and policy directives
governing the administration of SSA’s programs; 2) investigative procedures and techniques; and
3) legal implications and conclusions to be drawn from audit and investigative material produced
by the OIG. The Counsel’s office also administers the civil monetary penalty program.
